FEDERAL PRISON INDUSTRIES, INC.

   ANNUAL SPECIAL-PURPOSE 

     FINANCIAL STATEMENTS 

       FISCAL YEAR 2011 

         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


             Audit Report 12-07 

              December 2011

           FEDERAL PRISON INDUSTRIES, INC.

              ANNUAL SPECIAL-PURPOSE

               FINANCIAL STATEMENTS

                  FISCAL YEAR 2011


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Special-Purpose Financial
Statements of the Federal Prison Industries, Inc. (FPI) for the fiscal years
(FY) ended September 30, 2011, and September 30, 2010. Under the
direction of the Office of the Inspector General (OIG), Cotton & Company LLP
performed the FPI’s audit in accordance with U.S. generally accepted
government auditing standards. The audit resulted in an unqualified opinion
on the FY 2011 special-purpose financial statements. An unqualified opinion
means that the financial statements present fairly, in all material respects,
the financial position and the results of the entity’s operations in conformity
with U.S. generally accepted accounting principles (GAAP). For FY 2010, the
FPI also received an unqualified opinion on its special-purpose financial
statements (OIG Report No. 11-05).

       FPI’s special-purpose financial statements were prepared by cross-
walking its general-purpose financial statements, prepared in conformity
with GAAP standards issued by the Financial Accounting Standards Board, to
reflect the United States Standard General Ledger account structure as
established by the Department of Treasury Financial Management Service.
Their purpose is to assist the Department of Justice in preparing the
Department’s consolidated financial statements, by reclassifying FPI’s
general-purpose financial statements into a standard format that will be
consolidated with the Department’s other reporting entities.

      Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. The auditors did
not identify any significant deficiencies in the FY 2011 Independent
Auditors’ Report on Internal Control over Financial Reporting. In the
FY 2011 Independent Auditors’ Report on Compliance and Other Matters, the
auditors identified no instances of non-compliance with applicable laws and
regulations and the Federal Financial Management Improvement Act of
1996.

     The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our




                                       i
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the FPI’s special-purpose
financial statements, conclusions about the effectiveness of internal control,
conclusions on whether the FPI’s financial management systems
substantially complied with the Federal Financial Management Improvement
Act of 1996, or conclusions on compliance with laws and regulations. Cotton
& Company LLP is responsible for the attached auditors’ reports dated
November 1, 2011, and the conclusions expressed in the reports. However,
our review disclosed no instances where Cotton & Company LLP did not
comply, in all material respects, with U.S. generally accepted government
auditing standards.




                                      ii
